WAIVER
Supreme Court of the United States
No. 20-1676
v. Southern California Edison Company, et
al.
(Respondents)

Public Watchdogs, A California 501(c)(3)
Corporation
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
0 I am filing this waiver on behalf of all respondents.
M I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):
Southern California Edison Company, San Diego Gas & Electric Company, and
Sempra Fnergy
Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
a I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature 1.
Date:

June 14, 2021

(Type or print) Name

Edward J. Casey
OMs.
C31Mr.

0 Mrs.

Firm

Alston & Bird LIT

Address

333 South Hope Street, 16th Floor

City & State

Los Angeles, CA

Phone

(213) 576-1005

0 Miss

Zip 90071
Email

Ed.Casey@alston.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

Brian E. Casey, Esq.

RECEIVED
JUN 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

